<html>
<title> - THE SUMMIT OF THE AMERICAS: A NEW BEGINNING FOR U.S. POLICY IN THE REGION?</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
  THE SUMMIT OF THE AMERICAS: A NEW BEGINNING FOR U.S. POLICY IN THE 
                                REGION?

=======================================================================


                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 11, 2009

                               __________

                            Serial No. 111-8

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
48-000                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="deb9aeb19ebdabadaab6bbb2aef0bdb1b3f0">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 HOWARD L. BERMAN, California, Chairman
GARY L. ACKERMAN, New York           ILEANA ROS-LEHTINEN, Florida
ENI F.H. FALEOMAVAEGA, American      CHRISTOPHER H. SMITH, New Jersey
    Samoa                            DAN BURTON, Indiana
DONALD M. PAYNE, New Jersey          ELTON GALLEGLY, California
BRAD SHERMAN, California             DANA ROHRABACHER, California
ROBERT WEXLER, Florida               DONALD A. MANZULLO, Illinois
ELIOT L. ENGEL, New York             EDWARD R. ROYCE, California
BILL DELAHUNT, Massachusetts         RON PAUL, Texas
GREGORY W. MEEKS, New York           JEFF FLAKE, Arizona
DIANE E. WATSON, California          MIKE PENCE, Indiana
RUSS CARNAHAN, Missouri              JOE WILSON, South Carolina
ALBIO SIRES, New Jersey              JOHN BOOZMAN, Arkansas
GERALD E. CONNOLLY, Virginia         J. GRESHAM BARRETT, South Carolina
MICHAEL E. McMAHON, New York         CONNIE MACK, Florida
JOHN S. TANNER, Tennessee            JEFF FORTENBERRY, Nebraska
GENE GREEN, Texas                    MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            TED POE, Texas
BARBARA LEE, California              BOB INGLIS, South Carolina
SHELLEY BERKLEY, Nevada              GUS BILIRAKIS, Florida
JOSEPH CROWLEY, New York
MIKE ROSS, Arkansas
BRAD MILLER, North Carolina
DAVID SCOTT, Georgia
JIM COSTA, California
KEITH ELLISON, Minnesota
GABRIELLE GIFFORDS, Arizona
RON KLEIN, Florida
VACANT<greek-l>From 2/10/09 through 
    3/12/09 deg.
                   Richard J. Kessler, Staff Director
                Yleem Poblete, Republican Staff Director
            Brent Woolfork, Junior Professional Staff Member
        Genell Brown, Senior Staff Associate/Hearing Coordinator


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Thomas F. ``Mack'' McLarty, President, McLarty Associates....     8
Mr. Peter Hakim, President, The Inter-American Dialogue..........    16
The Honorable Otto J. Reich, President, Otto Reich Associates, 
  LLC (former Assistant Secretary of State for Western, 
  Hemisphere Affairs)............................................    23

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Thomas F. ``Mack'' McLarty: Prepared statement...............    11
Mr. Peter Hakim: Prepared statement..............................    19
The Honorable Otto J. Reich: Prepared statement..................    26

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California, and Chairman, Committee on Foreign 
  Affairs: Prepared statement....................................    57
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the State of Virginia: Prepared statement.................    59
The Honorable Ron Klein, a Representative in Congress from the 
  State of Florida: Prepared statement...........................    60
The Honorable Donald A. Manzullo, a Representative in Congress 
  from the State of Illinois: Prepared statement.................    61
The Honorable Michael E. McMahon, a Representative in Congress 
  from the State of New York: Prepared statement.................    62
The Honorable Gene Green, a Representative in Congress from the 
  State of Texas: Prepared statement.............................    63
The Honorable Diane E. Watson, a Representative in Congress from 
  the State of California: Prepared statement....................    64
Questions for the record submitted by the Honorable Barbara Lee, 
  a Representative in Congress from the State of California, and 
  responses from the Honorable Otto J. Reich.....................    65


  THE SUMMIT OF THE AMERICAS: A NEW BEGINNING FOR U.S. POLICY IN THE 
                                REGION?

                              ----------                              


                       WEDNESDAY, MARCH 11, 2009

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:13 a.m. in 
room 2172, Rayburn House Office Building, Hon. Howard L. Berman 
(chairman of the committee) presiding.
    Chairman Berman. Good morning. The House Foreign Affairs 
Committee will come to order.
    I apologize for the tardiness. We had a breakfast meeting 
with the Secretary General of the United Nations; when you are 
talking about the whole world it takes a long time. Today we 
are focusing on one critical part of the world.
    A few small housekeeping items. Congressman Adam Smith took 
a leave of absence from the committee in order to go on the 
Intelligence Committee and is no longer serving on the African 
Global Health and Middle East and South Asia Subcommittees. In 
addition, pursuant to a letter from the ranking member, Mr. 
Pence is not serving on the Subcommittee of 
the<greek-l>for deg. Middle East and South Asia.
    Without objection, those subcommittee assignments shall be 
changed to reflect the changes. I might add regarding 
Congresswoman Lynn Woolsey: There were a series of errors which 
led to her not coming onto the committee at the beginning of 
the year, but she will be taking Mr. Smith's place once the 
House approves the Democratic Caucus recommendations.
    To the subject at hand, I would yield myself 7 minutes.
    From a foreign policy perspective, we live in a quiet 
neighborhood. By and large, the countries of our region enjoy a 
shared set of values. With one notable exception, the Western 
Hemisphere is made up of elected democracies.
    Of our three biggest trading partners, two are on our 
border. Of our four biggest oil suppliers, three live close by. 
Our economies are inextricably intertwined and growing more so 
every day. Remittance flows from the U.S. to the region reached 
$54 billion in 2007.
    Culturally and socially, the region enriches the diversity 
of the United States every day and in every way. We are today 
one of the biggest Spanish speaking nations in the world.
    About a decade ago, at the tail end of the Clinton 
administration, we set out on a path of inattention to our 
neighborhood and its problems. Here and there we teased the 
region by proclaiming, as President Bush did in 2000, that the 
Americas would be a ``fundamental commitment'' of his 
presidency. But then grave problems appeared elsewhere, and by 
the end of the Bush administration our influence and standing 
in our comparatively quiet neighborhood was as poor as it has 
ever been.
    After spending the '90s doing our best to promote and 
institutionalize democracy and the rule of law, we tacitly 
endorsed a coup in Venezuela.
    After 9/11, when we should have enlisted our neighborhood 
friends in a methodical and joint counterterrorism plan, we 
instead ham-handedly lectured a region that had known terrorism 
for far longer than we had.
    With our country's insatiable appetite for illegal drugs, 
we fueled a regional drug trade and its attendant violence that 
is today eating away at the institutions of the region's 
governments, and then we spent billions of dollars on a heavy-
handed and ineffectual counter-drug policy that we left on auto 
pilot years ago. Drug flows have changed little<greek-l>, deg. 
and our emphasis on forced eradication at the expense of harm 
reduction has made us few friends.
    We aggressively extolled the virtues of trade, and then we 
played hard to get. And last year, in a region in which our 
past military involvement should cause us to move with 
exceeding caution, we reestablished after 60 years in mothballs 
a largely symbolic Fourth Fleet. After the fact, we explained 
to our concerned neighbors that it was merely an internal 
Pentagon matter.
    On April 17, President Obama will try to change this 
regional dynamic when he joins other regional leaders for the 
Fifth Summit of the Americas in Trinidad and Tobago. The good 
bet is that he will be welcomed with open arms, especially 
given the fine preparation work of the summit hosts and our 
Caribbean friends, but expectations are high. Perhaps too high.
    There are many questions to resolve: What can the U.S. 
deliver at the summit or in the near term to begin to repair 
our relationship? Should we walk in with a plan, or do we 
simply listen? Are we putting in the right people to fix this? 
Should we bring back the Special Envoy for the Americas?
    While our gaze was focused elsewhere, the region created a 
network of groups and subgroups with one common characteristic: 
The United States was not invited to any of them. The premier 
regional political organization in which we do have permanent 
membership, the Organization of American States, is struggling. 
How can we make the OAS part of the solution?
    Although I have no intention of making this a hearing about 
our policy toward Cuba, we would be remiss if we did not try to 
understand better how our Cuba policy plays in the bigger 
regional relationship.
    Bolivia's Morales just announced he is throwing out another 
one of our diplomats. Last year he expelled our Ambassador and 
the Drug Enforcement Agency. Nicaragua's Ortega has spent 2 
years in office confounding even the most charitable reading of 
his governance, and Venezuela's Chavez, with his most recent 
verbal tirade against President Obama, has proven it was not 
just all about Bush. Are we condemned in the medium term to a 
cycle of unfriendliness with these countries?
    And is there any new thinking at all about Haiti and its 
epic problems?
    With President Lula's visit days away, we are properly 
putting effort into our relationship with regional leader 
Brazil. Can Brazil help us with some of the tough issues on our 
plate? Does Brazil even want to?
    And finally, there is Mexico. President Calderon is among 
our best allies in the region, but a proven and solid 
relationship does not in itself resolve the big issues that we 
need to tackle together. It is only the starting point.
    Ronald Reagan once said that ``status quo'' is Latin for 
``the mess that we are in.'' I would add that status quo ante 
for our relations with our neighbors may well just be ``the 
mess that we were in.''
    We have a unique voice in this region, and we need to 
reestablish leadership on the positive things we believe in. 
But gone are the days when our influence or authority permitted 
us to raise our voice and get our way. It was easier, but as we 
look forward it is neither possible nor wise.
    And let us just say it: Building a wall on our southern 
border is not going to make any of the big problems to the 
south go away. Yes, it is great to be able to come home to our 
quiet neighborhood, but while we were away things have changed. 
I think that is what we should have a conversation about today.
    Before I introduce our distinguished panel of witnesses, 
let me turn to our distinguished ranking member, Ileana Ros-
Lehtinen, for any opening comments she would like to make.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Welcome, 
witnesses.
    As the chairman had said, democratic institutions in our 
hemisphere are under increasing assault from internal and 
external actors. We must help fight this trend not by engaging 
with leaders who are demonstrably anti-American and anti-
democratic in the hope that they will miraculously change, but 
instead by standing firmly with our democratic allies in 
defending freedom as a central tenet of our policy in the 
Western Hemisphere.
    In a meeting this morning with U.N. Secretary-General Ban 
Ki-Moon, I just had the opportunity to discuss the absurdity of 
having a human rights abuser like Cuba sit on the U.N. Human 
Rights Council.
    In Nicaragua, we saw November municipal elections that were 
widely recognized as the fraudulent manipulation of the 
people's right to fairly elect their leaders. Ortega has 
stripped the opposition of political space, developed 
neighborhood councils to spy on the political rights of fellow 
Nicaraguans, and consolidated control over all four branches of 
the government.
    In Venezuela, there have been attacks on property rights 
and the freedom of the press, to decree rule and explicit 
threats against opponents. Chavez is gradually stripping the 
people of their fundamental rights, and his ongoing anti-
Semitic incitement is of particular concern to me. Since 
Venezuela was listed by the State Department as a state sponsor 
of anti-Semitism in 2008, Chavez has only worked to further 
stoke the fires of anti-Semitism.
    With the support of countries like Venezuela, Nicaragua, 
Cuba, Bolivia and Ecuador, a realignment is taking place with 
rogue regimes such as Iran. Iran is working to expand its 
influence within the region. The Argentine Government concluded 
that the 1994 attack on the AMIA Jewish Community Center was 
``decided and organized by the highest leaders of the former 
Government of Iran, whom entrusted its execution to 
Hezbollah.''
    The AMIA case demonstrates that the Iranian regime has used 
its Embassies abroad to extend its radical goals. Defense 
Secretary Gates recently said,

        ``I am concerned about the level of subversive 
        activities that the Iranians are carrying on in a 
        number of places in Latin America. They are opening a 
        lot of offices and a lot of fronts behind which they 
        interfere in what is going on in some of these 
        countries.''

    Bolivia and Ecuador are two recent hosts of Iranian 
Embassies and resumed their baseless accusations against the 
United States. Blaming dissent on the interference of the 
United States, Bolivia's Evo Morales has expelled our U.S. 
Ambassador and another American diplomat, kicked out our entire 
DEA presence, removed some USAID personnel and programs and 
forced our Peace Corps volunteers to pull out.
    In Ecuador, last September's constitutional reform not only 
allowed for Correa to potentially extend his Presidency to the 
year 2017, but also forced the closure of the U.S. Manta base, 
a crucial post for drug interdiction flights. Correa ordered 
the expulsion of two U.S. Embassy officials, and we are also 
seeing these authoritarian leaders establishing alliances with 
Iran, Russia and China.
    Fortunately, the U.S. does have strong partners in the 
fight against narcotraffickers, extremists and organized crime. 
There is no denying Colombia's commitment on these core issues. 
It has made incredible progress against narcotraffickers and 
the FARC. At the same time, it has worked to strengthen civil 
society and its democratic institutions.
    Colombia should be recognized for this, including with the 
adoption of the U.S.-Colombia Free Trade Agreement. This 
agreement will strengthen our bilateral ties<greek-l>, deg. 
while benefitting workers and consumers in both of our nations.
    Mexico's drug cartel problems are an imminent threat to our 
homeland security. The chairman of the Joint Chiefs of Staff, 
Admiral Mike Mullen, referred to the recent spike in violence 
as a crisis. Our Justice Department reported that more than 700 
people were recently arrested as part of a crackdown on 
Mexico's drug and smuggling cartels operating inside the United 
States.
    Another country in critical need of support is Haiti. A 
myriad of challenges have placed Haiti at an extreme 
disadvantage in finally securing peace, prosperity and 
stability for its people. I look forward to working with my 
colleagues to safeguard and advance critical U.S. interests in 
the region.
    And look at that, Mr. Chairman. With time to spare. I yield 
back.
    Chairman Berman. Regarding the order: We will hear from the 
chairs and ranking members of the relevant subcommittees, and 
then, with one exception, it is the chair's intent not to 
recognize 1-minute statements because we have three suspensions 
from the committee on the floor today.
    We are going to have votes around 11:45 or 12:00, and I 
want to try to get the witnesses' testimony and as many members 
to have questions as possible because my guess is once we 
recess for the votes I won't be able to come back, and we will 
see whether the members will.
    I now am pleased to recognize for opening statement the 
chairman of the Western Hemisphere Subcommittee, the gentleman 
from New York, Mr. Engel.
    Mr. Engel. Thank you, Chairman Berman. As chairman of the 
Western Hemisphere Subcommittee, I very much appreciate your 
calling today's hearing to discuss the upcoming Summit of the 
Americas in Trinidad and Tobago.
    Barack Obama's election was greeted with excitement 
throughout the hemisphere. When I traveled to Paraguay, Chile 
and Peru immediately after our Presidential election, there was 
a real sense of optimism both among the heads of state and the 
citizens of these countries.
    I am delighted that President Obama will be in Trinidad for 
the summit, and I believe that the goodwill generated by 
President Obama's presence at this summit will itself do a 
great deal to reinvigorate United States-Latin American 
relations.
    I will be leading a congressional delegation to the summit, 
and I look forward to working with the Obama administration as 
the summit approaches. As chairman, I have had the privilege of 
traveling to the region and getting to know many of the Heads 
of State.
    I encourage President Obama to develop personal 
relationships with as many of these leaders as he can. In each 
of these meetings it will be important to emphasize that the 
United States wants to once again work with our counterparts in 
Latin America in true partnership.
    In the past several years, we have really been disengaged 
in the region. We need to be more engaged. If we remain 
disengaged and others move in to fill the void, we have no one 
to blame but ourselves, and by others I mean the Chavezes of 
the world, China, Russia and Iran. We need to be engaged.
    Our friends in the region recognize the U.S. is in a 
financial crisis and is in a difficult position to immediately 
promise new aid and trade opportunities, but there are actions 
that can be announced at the summit that are cost neutral.
    Given the interconnectedness of our economies, everything 
that happens to the U.S. economy impacts the economies of our 
neighbors in the Americas. A promise from President Obama to 
coordinate with heads of state in the Americas as we try to 
emerge from the financial crisis would be very well received.
    In addition, I have spent a great deal of time recently 
working to curb illegal firearms trafficking from the United 
States to Latin America. A pledge from President Obama that the 
United States will do more to enforce the current ban on 
imported assault weapons that come into our country, and then 
are trafficked in the Americas, particularly Mexico, would go a 
long way.
    Finally, sending the Inter-American Convention Against the 
Illicit Manufacturing of and Trafficking in Firearms, 
Ammunition, Explosives and Other Related 
Materials<greek-l>, deg. (CIFTA)--a 1997 treaty that the U.S. 
signed--sending that to the Senate for ratification in advance 
of the summit would be another opportunity to show our 
commitment to our neighbors.
    Finally, Mr. Chairman, the summit must not be the high 
point of our relationship with Latin America and the Caribbean. 
Rather, it must represent a new beginning where the U.S. shows 
real respect for our neighbors to the south and pays sustained 
attention to this important region.
    In fact, I think President Obama should bring Secretary 
Clinton's reset button to the summit as a symbolic way of 
showing that we are ready for a change in how we deal with the 
region.
    Again, Mr. Chairman, thank you. I look forward to hearing 
from our distinguished witnesses.
    Chairman Berman. The time of the gentleman has expired.
    And now, in the absence of the ranking member, I am pleased 
to recognize for 3 minutes the former chairman of the Western 
Hemisphere Subcommittee, the former ranking member of the 
Western Hemisphere Subcommittee, the ubiquitous and 
distinguished Dan Burton, for 3 minutes.
    Mr. Burton. The former former. Mr. Chairman, I hope as many 
members as possible can join Chairman Engel to go to the Summit 
of the Americas. I think it is extremely important.
    Central and South America and the Caribbean are at our 
front door. We have been very concerned about what is going on 
elsewhere in the world, and I think we should be, but we have 
some severe problems down there, and I think it is extremely 
important that we participate and be involved more than we have 
in the past.
    We need to get a new Secretary of State for Western 
Hemisphere so that they can really get down to work in dealing 
with some of the crises that we face down there; things like in 
El Salvador the potential for another leftist leader being 
elected could cause us more problems in Central America.
    We already have Hugo Chavez, Evo Morales and Daniel Ortega 
down there, and we don't want that Bolivarian leftist movement 
to get any more attraction than it has in the past. It is going 
to cause remittances that go down to those countries to be cut 
back, I am afraid, if we continue to see that leftist movement.
    We also need to be concerned I think, Mr. Chairman, about 
our good friends like Colombia and Mexico. Colombia has been a 
tremendous ally, and President Uribe has done an outstanding 
job in trying to help us fight in the drug war.
    I hope that we will learn from the Summit of the Americas 
how important it is that we extend our trade agreements to 
countries with free trade agreements like Colombia because they 
have been such a stalwart ally in this area.
    And finally, I hope that we will also be able to discuss 
things like the border issues that we face with Mexico. Mexico 
right now is a war zone in the northern part right on our 
border, and I think it is extremely important that this 
committee pay <greek-l>more  deg.closer attention to that and 
the administration pay <greek-l>more  deg.closer attention to 
that. We may even have to send troops down there to protect 
some of those areas like down around Juarez and that border 
area.
    I think these are issues that we ought to bring up at the 
Summit of the Americas. There will be almost all of the nations 
present there, and I really think it is important that you have 
a very strong delegation, Mr. Chairman. I intend to go with you 
and try to get other members to go as well.
    With that, I yield back the balance of my time.
    Chairman Berman. The time of the gentleman has expired.
    I am now pleased, in an exception to the 1-minute rule, to 
recognize my colleague from Arkansas in order to introduce one 
of the witnesses. The gentleman from Arkansas, Mr. Ross, is 
recognized for 1 minute.
    Mr. Ross. Thank you, Mr. Chairman. I probably won't even 
take that.
    I appreciate the opportunity to welcome Mack McLarty to our 
committee. As many people know, former President Bill Clinton 
and former Presidential candidate Mike Huckabee, both from 
Hope, Arkansas--and people are probably tired of Hope, 
Arkansas, but Mack and I aren't. We both graduated high school 
there, and it is good to have him with us today.
    As most of you know, in his career he has developed an 
extensive knowledge of U.S. foreign and trade policy. In 
addition to serving as President Clinton's first White House 
Chief of Staff, Mack organized the 1994 Summit of the Americas, 
so it is very appropriate that he be here testifying today, and 
of course later was appointed by the President as Special Envoy 
for the Americas.
    So as a member of the committee and as an Arkansan and 
someone that is from Hope, I am proud to welcome Mack McLarty, 
my dear friend, as one of our witnesses here today.
    Chairman Berman. The time of the gentleman has expired.
    And now we will introduce the entire panel. For some people 
no introduction is needed, but Mack McLarty is going to get 
two. He is president of the international advisory firm, 
McLarty Associates, and chairman of the McLarty Companies, a 
fourth generation family transportation business.
    As the gentleman from Arkansas mentioned, we all know him 
for his years in the Clinton administration. He served as Chief 
of Staff, Counselor to the President and, of particular note 
for our hearing today, the first Special Envoy for the 
Americas.
    He is the recipient of the highest civilian honors of 
Argentina, Brazil, Chile, Mexico, Nicaragua, Panama and 
Venezuela. He is a senior counselor to the Center for Strategic 
International Studies, a senior international fellow at the 
U.S. Chamber of Commerce and is a member of the Council on 
Foreign Relations.
    Our second witness, Peter Hakim, is president of the Inter-
American Dialogue, a Washington-based center for policy 
analysis and exchange for Western Hemisphere affairs. Mr. Hakim 
previously served as vice president of the Inter-American 
Foundation and worked for the Ford Foundation in both New York 
and Latin America.
    He has been a regular witness before Congress over a dozen 
times. He is a regular contributor on hemispheric issues to 
both American and Latin American news outlets. He sits on a 
variety of boards and advisory committees and is a member also 
of the Council on Foreign Relations, and he has spent time as a 
professor at MIT and Columbia.
    Ambassador Otto Reich is our third witness today. 
Ambassador Reich is president of Otto Reich Associates, a 
consulting firm which provides international government 
relations, trade and investment advice to U.S. and 
multinational clients.
    In 2001, President George W. Bush selected Ambassador Reich 
to be the Assistant Secretary of State for Western Hemisphere 
Affairs, where he served until 2002. Ambassador Reich also 
served as President Bush's Special Envoy for Western Hemisphere 
Initiatives.
    Under President Reagan, Ambassador Reich served as U.S. 
Ambassador to Venezuela, for which he was awarded the highest 
commendations of both the State Department and the Republic of 
Venezuela, and as Special Advisor to the Secretary of State 
from 1983 to 1986, he directed the Office of Public Diplomacy 
for Latin America and the Caribbean. From 1981 to 1983 he was 
Assistant Administrator of USAID in charge of U.S. economic 
assistance to Latin America and the Caribbean.
    Thank you for being here today. Mr. McLarty, why don't you 
start?

STATEMENT OF MR. THOMAS F. ``MACK'' MCLARTY, PRESIDENT, MCLARTY 
                           ASSOCIATES

    Mr. McLarty. Mr. Chairman, Madam Vice Chairman, 
distinguished members of the committee, I am honored to appear 
before you today. Congressman Ross, thank you for your warm 
words.
    I have already submitted my written testimony for the 
record, so today I would like to just offer a brief summary.
    Mr. Chairman, I genuinely feel this hearing is a very 
timely one not only as we look out to next month's Summit of 
the Americas at the Port of Spain, but also to April 2 when the 
G-20 will meet in London where the United States, Canada, 
Argentina, Brazil and Mexico will be participating.
    The question that you have put before us is whether our 
Nation has a chance for a new beginning and new course, if you 
will, for U.S. policy in the hemisphere. I believe we do, and I 
believe we must seize it not only for the opportunities that it 
will create, but for the risk we will face if we do not.
    Because the kitchen table issues that affect your 
constituents, our citizens and our country's daily lives like 
the economy, i.e., jobs, energy, the environment, security, can 
only be managed, at least managed successfully, by working 
directly and concretely with nations in our hemisphere.
    While all of the hemisphere leaders are of course familiar 
with our new President, and he has already met personally with 
Mexican President Calderon, Canadian Prime Minister Harper and 
will meet this Saturday with President Lula from Brazil, this 
summit will be President Obama's first formal introduction to 
most of his hemispheric counterparts.
    Some have suggested that the President should go to the 
Port of Spain in a listening mode. I agree, inasmuch as our 
Latin and Caribbean partners have little interest in hearing a 
lecture, but for the summit to meet its full potential as a 
forum, whereas Eric Farnsworth of the Council of the Americas 
has written, serious issues are seriously discussed, he will 
have to do more than just listen.
    The President needs a framework for sustained engagement 
that treats our neighbors with dignity and respect for their 
initial and collective concerns and that shows, as my 
colleague, Peter Hakim, has described, that the United States 
can now be counted on as a dependable partner and a responsible 
neighbor in achieving common objectives.
    So what are the elements of that framework? First, the 
President needs to get his Western Hemispheric team in place, 
complementing the fine work that Assistant Secretary Tom 
Shannon has done, with ambassadors in place from Ottawa to 
Buenos Aires to Bridgetown.
    I think importantly, he does need to appoint a Special 
Envoy for the Americas. President Obama promised to appoint a 
Special Envoy for the region. It is time to get it done as a 
signal to the quality of attention his administration intends 
to devote.
    Second, I believe the President must direct the rest of his 
Cabinet--not just State and his economic team, but also 
Homeland Security, Department of Defense, Agriculture, Energy, 
EPA and more--to engage on a regular basis in ministerial 
meetings with their regional counterparts.
    Third, he should have a blueprint for engagement with each 
country beyond the summit, such as regional meetings with the 
Caribbean countries and Central America, continuing the North 
American Summit process, regular bilateral consultations with 
Brazil and Mexico, hemispheric powers in their own right.
    And, finally, I believe he should call for a bipartisan 
task force or action group with members of the Executive Branch 
and of Congress to monitor and encourage summit follow-through 
and promote collaboration with hemispheric counterparts. He 
should meet regularly with this group and insist on benchmarks 
for progress.
    At the summit itself, the number one priority will be the 
United States economy, and the most important thing the Obama 
administration can do for our hemispheric neighbors is to get 
our own economy going again. Our summit partners want and 
deserve regular consultation, and, frankly, they may have some 
good ideas to offer. In particular, they want to be assured the 
United States will not respond to our domestic challenges by 
building protectionist walls.
    Many of the countries in the regions that have implemented 
sound policies have lifted millions from poverty to the middle 
class, but we should keep in mind the risk that this economic 
crisis poses for the stability in the region.
    More than 20 percent of the population in Latin America and 
the Caribbean lived on less than $2 a day even before the 
crisis struck. If economic turmoil leads to social unrest, it 
could put a strain on the region's fragile democratic 
institutions.
    The next item<greek-l>, deg. that has already been noted by 
a number of distinguished members of the 
committee<greek-l>, deg. has to be the security situation in 
Mexico and its neighbors in Central America. I want to be 
clear. I do not believe Mexico is a failed or failing state, 
but the alarming level of violence needs to be gotten under 
control for the Mexican people, for the stability and safety of 
the border region and to preserve the rule of law.
    Building on the bipartisan passage of the Merida 
Initiative, the United States can play a meaningful role by 
absolutely clamping down on the flow of arms across our border 
and stepping up prevention and treatment efforts to reduce our 
own drug demand and supporting Mexico's efforts to strengthen 
civilian institutions.
    I would respectfully urge President Obama to consider 
putting Vice President Biden in charge of this vital effort, 
working closely with Homeland Security Secretary Janet 
Napolitano. In addition to the Vice President's extensive 
experience in law enforcement and judicial matters, his 
appointment would signal a U.S. commitment at the highest 
levels.
    On trade, I think President Obama sent the right message 
during his visit to Canada last month when he said that his 
desire is to grow trade, not contract it. He should make good 
on this pledge by coming to the summit with the U.S.-Panama FTA 
in hand or at least a clear strategy for passage and a strong 
forward lean on the U.S.-Colombia FTA as long as labor and 
human rights benchmarks are included.
    On energy, there are many issues to be discussed not only 
for the security of our base supply, where over 50 percent of 
our energy imports comes from our own hemisphere, but also 
interest in ethanol and integrated grids.
    On the environment, the Brookings Commission study 
recommended establishing a regional subgroup for climate change 
cooperation to coordinate positions in advance of the 
Copenhagen Conference. I think that would increase our 
influence in that conference and perhaps achieve a more 
positive outcome.
    Another priority area is the joint efforts of lifting 
people's lives, the basic fundamental tenant of any working 
democracy, through the support of education, public health 
collaboration, and continued commitment to the Millennium 
Challenge established by President Bush. The private sector has 
a role to play too, as do education exchanges.
    On immigration, I think the time has come to move forward 
with a comprehensive immigration reform, and the United States 
will need to work closely with our hemispheric neighbors to 
succeed. I have recently had the privilege of co-chairing a 
Council on Foreign Relations Task Force on this topic with 
former Governor Jeb Bush.
    Effective immigration policy must begin by securing and 
safeguarding our borders, but it also must reflect realities 
and the labor force needs we have in this country and the 
support of economic development in the migrant exporting 
countries.
    In conclusion, Mr. Chairman, there can be no question that 
North, South and Central America's futures, as well as the 
Caribbean, are intertwined. The question before us is whether 
that future will be one of shared peace, prosperity and 
progress.
    I am convinced that a purposeful, pragmatic, respectful 
U.S. policy toward our neighbors significantly increases our 
prospects for success, and that is the kind of approach I hope 
and believe President Obama will bring to the Port of Spain.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McLarty 
follows:]<greek-l>Thomas McLarty deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you.
    Mr. Hakim.

  STATEMENT OF MR. PETER HAKIM, PRESIDENT, THE INTER-AMERICAN 
                            DIALOGUE

    Mr. Hakim. Thank you very much, Mr. Chairman. Madam Vice 
Chairman, thank you. It is a great honor to be here to testify 
and to be on this panel with Mack McLarty and Otto Reich.
    I met Mack McLarty about 15 years ago as we were preparing 
for the first Summit of the Americas, and now I am proud to say 
he is also vice chairman of the Inter-American Dialogue. I must 
have learned a lot from him because my testimony will tend to 
reinforce a lot that he said today.
    In any event, the summit is a very critical opportunity for 
the Obama administration to begin a new period of what I would 
call consistent engagement, consistent over time and consistent 
in message, and it is also an opportunity for Latin America. 
Consistent engagement for the United States is not only good 
for the United States; it is good for Latin America. I think 
most Latin Americans want that kind of engagement.
    I think we heard some discouraging words about the state of 
Latin America here. I think that I am more encouraged by 
developments in Latin America. I think the region has become a 
region of countries that are more assertive, more confident of 
themselves, more independent, and that sets a stronger basis 
for more robust cooperation, more robust engagement with the 
region.
    When I travel through Latin America now and I talk to Latin 
Americans I find a strange phenomena. You sense an enormous 
enthusiasm for our new President, Barack Obama, enormous 
expectations for what he might accomplish in the United States, 
globally and in Latin America. Then you ask about the United 
States, and expectations remain low and there is not much 
enthusiasm.
    It is very hard to hold those two views for very long; to 
be enthusiastic about the leader of a country, but 
unenthusiastic about the country. High expectations for the 
leader and low expectations for the country are inconsistent.
    So eventually those two are going to have to merge. Either 
the expectations in the region, the enthusiasm in the region is 
going to rise for the United States, or the expectations for 
the President are going to decline. This is where the summit 
comes in. It is really a very important opportunity for the 
President to begin that process of showing that the United 
States is ready and able to become a dependable partner to 
engage in this kind of consistent engagement.
    The spotlight in Port of Spain when the hemisphere's heads 
of state meet in April is going to be on President Obama. There 
is no question about that. Whatever the formal agenda is, 
whatever items are, the real issue will be taking a measurement 
of our new President, trying to convince him of their views and 
trying to listen very hard to what he has to say.
    And it is very important--I think Mack emphasized this--for 
him to listen, but it is also very important for him to come 
with a message. No one expects him to show up with a well-
defined, comprehensive policy for the region or detailed 
recommendations, but they do expect to hear something about his 
ideas, something about the directions he is likely to go.
    And this is the time not to talk about the relationship in 
the broad, not a time to think about grand visions, but a time 
to attack specific items on a very difficult agenda. In many 
respects it is an unfinished agenda. Many of the items have 
been there for quite a while. But there are also new 
opportunities and new challenges.
    Let me say I agree fully with Mack McLarty. The central 
item at the summit will be and should be the economic crisis. 
This has an enormous prospect of changing Latin America and 
changing it in rather devastating ways. Mack McLarty identified 
some of them.
    The past 5 or 6 years have been a period of real progress 
in Latin America on many fronts. You have seen economic growth 
that has been unprecedented in the past 25 years. You have seen 
a reduction in poverty across the region. You have seen an 
increase in democratic stability, particularly in the most 
important countries of the region, and you have seen the growth 
of a middle class.
    For the first time, Brazil has more people in its middle 
class than it has in poverty. There were enormous advances. The 
question now is: Can they be sustained? The threat is that the 
economic crisis will put them into reverse.
    It is important--Mack McLarty echoed what President Lula 
said--that we fix our economy. That is most important because 
our economy is so vital to virtually every economy in Latin 
America--for investment, remittances, trade, tourism and more, 
but it is not just fixing our economy. It is how we fix the 
economy.
    In repairing the U.S. economy we have to take account of 
the region. Mack talked about consulting with the region. That 
is vital. It is also vital that we avoid protectionism, that we 
not put restraints on imports from Latin America, on restraints 
on investment to Latin America, or on remittances to Latin 
America and that we consistently consult with the region.
    As we work on our economic problems we recognize that the 
way we go about solving them will have an enormous impact on 
Latin America and the rest of the world.
    The rest are in no order of priority. I think all of these 
are important. One I think is important--not everyone will 
agree--but Cuba. The question is simply whether the United 
States can begin to work with Latin America on this issue. Can 
it align itself more?
    This is the issue that will probably capture the most 
headlines in Port of Spain, what President Obama has to say 
about Cuba or doesn't say about Cuba, but it does seem to me 
the time has come to work with Latin America on trying to find 
ways of bringing back the political and economic opening in 
Cuba and reintegrating it into the hemisphere. Let me say it is 
something I am reminded of every night because my wife is a 
Cuban, born in Cuba.
    The other, the security issue, Mack has covered rather 
skillfully on Mexico, but we should remember it is not only 
Mexico that is facing this huge upsurge in crime and violence. 
Virtually every country in Latin America is now facing a 
burgeoning criminal violence. It is a regional issue and we 
ought to be dealing with it regionwise.
    Immigration: I agree with what Mack said. We have to move 
toward comprehensive reform, and we also have to deal with some 
of the symbolic aspects like the fence or the wall, like the 
raids targeted against immigrants.
    Trade: I just want to emphasize very clearly, we have two 
trade agreements that we have negotiated in good faith with two 
close allies of the United States. To show our credibility, our 
dependability, we have to find the way to move forward with 
those agreements.
    Clearly in the case of Colombia there are concerns about 
human rights, but these can be resolved. Colombia is willing to 
work to resolve them, and there is no reason not to begin to 
try and move forward on that.
    Let me just suggest there are lots of other issues here, 
and I don't want to take up lots of time, but one is that the 
Caribbean has always been seen as a neglected, ignored area. 
T<greek-l>hey themselves, t deg.his is the first summit that is 
taking place in the Caribbean. It is really very important that 
the President have a message to the Caribbean. They have the 
problems of the economic crisis, the security problems, et 
cetera, and we ought to be able to begin to sort of relate, and 
particularly at this summit.
    Haiti, which is part of the Caribbean, is a particular 
issue. We have had enormously good inter-American cooperation 
on Haiti. It is almost a model with Brazil leading 
peacekeeping, the Chileans involved, the Argentines involved. 
Canada has made Haiti a priority. We should build on this 
cooperation but recognize any solution is going to take a long 
time.
    And, finally, the Latin Americans are going to be very 
interested in what we have to say about global issues. They are 
a continent that has emerged. They are playing a global role. 
They will want to hear what the United States is doing in the 
Middle East, how it is resolving the Iraq War, its relations 
with Iran.
    The global issues should not be ignored. The hemisphere is 
part of the world, and the leaders of the hemisphere will be 
very interested in what the U.S. is doing globally.
    Thank you very much.
    [The prepared statement of Mr. Hakim 
follows:]<greek-l>Peter Hakim deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you.
    Ambassador Reich?

STATEMENT OF THE HONORABLE OTTO J. REICH, PRESIDENT, OTTO REICH 
   ASSOCIATES, LLC (FORMER ASSISTANT SECRETARY OF STATE FOR 
                  WESTERN, HEMISPHERE AFFAIRS)

    Ambassador Reich. Thank you, Mr. Chairman and Ranking 
Member Ros-Lehtinen, members of the committee. It is an honor 
to be back in this room and to talk about something as 
important as the summit.
    In just the 3 years, listening to you generously relate my 
experiences, Mr. Chairman, from 2002 to 2004, I personally 
accompanied the President of the United States to six summits 
in this hemisphere: One U.N. summit, one APEC summit, one 
Summit of the Americas and three subregional summits.
    Summitry is important, and I would like to restate some 
obvious facts about summits perhaps from the inside that may or 
may not have been obvious. A summit meeting of this hemisphere 
presents opportunities as well as risks for the United States. 
Not all the countries in this hemisphere are good neighbors. 
Some undermine democracy at home and abroad and threaten 
regional peace.
    The U.S. should actively help the good neighbors, reject 
the destructive and persuade the ambivalent to rejoin the 
community of democracies, but we should not delude ourselves. 
We must deal with the world the way it is and work to improve 
it, not think that all leaders are good for their people.
    The summit is an opportunity for our President to listen to 
our neighbors' concerns, but, most importantly, to restate what 
the United States stands for. A President stands for a nation, 
and our Nation stands for freedom and democracy, and there lies 
one of the risks.
    There is a risk that the summit may descend into chaos, as 
it did in Mar del Plata, Argentina, in December 2005 when a 
small group of undemocratic leaders decided to gratuitously 
attack the United States.
    In the best of neighborhoods there are dishonest, abusive 
or violent persons. In some neighborhoods there are drug 
traffickers, thieves and murderers. Why is it that we 
understand that reality when we lock the door to our homes, but 
not in our foreign relations?
    There are leaders in this hemisphere who have aided and 
abetted drug trafficking, massive corruption and hideous human 
rights violations. They know who they are, and several agencies 
of the U.S. Government also know who they are. More than one of 
them will be present in Trinidad for this summit.
    We should listen to our neighbors when they uphold common 
values, but we should not listen when we put expediency ahead 
of principle, when they use a summit to embrace a military 
dictator as they did, literally, with Cuban General Raul Castro 
in the Rio Group meeting in Brazil this past December.
    Warning signals of the risks at Trinidad abound. Two weeks 
ago, Hugo Chavez said he was indifferent about meeting U.S. 
President Barack Obama at the summit. Chavez said he would go 
``to defend the integration of the Caribbean and Latin America 
and demand that the empire that Obama leads lift its blockade 
of Cuba, abide by U.N. resolutions and condemn Israel.''
    As a participant at the summit, that is Chavez's 
prerogative, but does not harbor well for a new beginning in 
this hemisphere. In Trinidad, Chavez will be reinforced by at 
least two other anti-Americans--Bolivia's Morales and Ecuador's 
Correa--who relish expelling U.S. diplomats, confiscating U.S. 
companies, harassing private enterprise and then blaming the 
United States for their lack of economic and social progress.
    When countries expel another country's diplomats for no 
good reason they are usually not interested in genuine 
dialogue. This is an opportunity for President Obama to restate 
U.S. support of democracies; real democracies, not those who 
claim the title simply because a leader was at some point 
democratically elected.
    This hemisphere has a long list of democratically elected 
people who later became drunk with power and stayed on until 
they had to be removed: Peron in Argentina, Batista in Cuba, 
Aristide in Haiti, Fujimori in Peru, and I could go on.
    The United States has many good friends in Latin America 
and the Caribbean, such as Mexico, Colombia, Peru, Chile, 
Uruguay, and most of the Caribbean nations and Central American 
nations. President Obama should make a very public 
demonstration of support for those nations.
    Trinidad will allow our new President to show that he knows 
the difference between despots and democrats, statesmen and 
demagogues. The President should embrace Mexico and Colombia, 
for example. They are under attack by our common enemies: 
Narcotics traffickers, organized crime and terrorists and now 
the global financial crisis. Mexico and Colombia are ruled by 
honest reformers that support civil and political rights, 
individual freedoms, free enterprise and free markets.
    Recently we have heard Mexico described as a failing state. 
I disagree. Mexico today is the Colombia of a decade ago. We 
need to support Mexico like we supported Colombia in a 
bipartisan fashion.
    Plan Colombia was passed by a Republican Congress and 
signed by President Clinton. Not long ago Colombia was also 
described as a failed state. It has not only survived; it has 
thrived and now is capable of levels of development 
unimaginable 10 years ago. With our help, Mexico will do no 
less.
    Colombia deserves to be treated as a friend and partner. In 
the 10 years that Plan Colombia has been in effect, the nation 
has made remarkable social, economic and security progress. Mr. 
Chairman, it is time to help create decent jobs in the United 
States and in Colombia and in Panama by approving the long-
stalled trade agreements with those friendly countries.
    These hearings ask if there can be a new beginning to 
United States-Latin American relations. We must also ask 
whether it is possible to establish a relationship of trust 
with governments that violate human rights, that invite the 
Russian naval fleet to maneuver in the Caribbean, that allow 
passengers on flights from Iran to land in their capitals 
without checking travel documents, that purchase weapons 
factories to manufacture hundreds of thousands of AK-47 assault 
rifles, that allow revolutionary guards to be assigned to 
Iranian Embassies under diplomatic cover and whose high 
officials are accused of conspiracy to abet drug trafficking.
    The same Hugo Chavez who says he is coming to the summit in 
Trinidad to demand the United States unilaterally lift 
sanctions on the Castro dictatorship and condemn Israel is the 
leader of a government that just this week saw three senior 
officials, including a close aid to Chavez, accused by the U.S. 
State Department of assisting narcotics trafficking from 
Colombia in an annual report that describes Venezuela as a 
``major drug transit country.''
    In conclusion, Mr. Chairman, President Obama said the 
following in his inaugural address, and I quote,

        ``To those who cling to power through corruption and 
        deceit and the silencing of dissent, know that you are 
        on the wrong side of history, but that we will extend a 
        hand if you are willing to unclench your fist.''

    We may not know for years if a new beginning in hemispheric 
relations will be achieved at this summit, but if President 
Obama reminds our friends, our adversaries and the ambivalent 
of those words in his inaugural address, the United States will 
be well served in Trinidad.
    Thank you very much.
    [The prepared statement of Mr. Reich follows:]<greek-l>Otto 
Reich deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Berman. Thank you, Ambassador, and I thank all of 
our witnesses.
    I now yield 5 minutes to the ranking member of the 
committee from one of the centers of the Western Hemisphere, 
Dade County, Florida, the gentlelady, Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Chairman, and I 
indeed have a whole host of questions, but I would like to 
yield my time, if I may, to Mr. Mack of Florida, the ranking 
member of that subcommittee. Thank you, Mr. Chairman, for your 
generosity.
    Chairman Berman. The gentleman is recognized for 5 minutes.
    Mr. Mack. Thank you, Mr. Chairman, and I also thank the 
ranking member for the time. This is a most important hearing I 
think, Mr. Chairman, as we move forward.
    I guess I will start by saying I think I disagree with some 
of the statements that have been made by the panel. When I look 
at Latin America I see real concerns on the horizon.
    You see a continuing influence by Hugo Chavez and others in 
growing away from freedom and democracy and liberty and moving 
more toward a socialist, communist dictatorship type of 
governments, and that is not good for the people of Latin 
America and it is not good for the United States.
    But I do think the summit offers a real opportunity for the 
United States to show it is serious about engagement in Latin 
America, and I think it is critical that as we move forward we 
are clear to our neighbors that we want to support those who 
support us, that we want to strengthen our ties with our 
allies, that we want to walk hand in hand, shoulder to 
shoulder, with those that believe in freedom, democracy, 
liberty.
    For those that don't and for those who have turned their 
backs on the concept of freedom, I think we need to be tough, 
and I think we need to suggest and tell them that I don't know 
how we can continue to support countries that are looking for 
every opportunity to turn away from us.
    I think the President has a real opportunity at the summit, 
and I think all of us have talked about what it is, what kind 
of symbols can the United States or the President take to Latin 
America or to the summit, and I think the most important one is 
a sense of fairness and a sense of hope and that we do so by 
supporting those that support the United States and that we 
show strength in opposing those who do not believe in the idea 
of freedom and democracy and liberty.
    So I would like to ask one question to the Ambassador. You 
made some serious allegations in your remarks that at least one 
of the heads of state attending the summit will commit serious 
crimes or have committed serious crimes. I would like to know 
who they are.
    And also to Mr. Hakim. You talked about Cuba and changing 
the policies, our policy toward Cuba. I would ask you in 
changing policies with Cuba are you suggesting that somehow if 
Castro, the Castro brothers, were to somehow get their hands on 
more money and more prosperity for themselves that that would 
somehow move out into the rest of Cuba? I don't think so.
    You know, this argument somehow that we are going to start 
supporting someone with a record like the Castro brothers is 
crazy to me. They have done nothing to show that they are 
interested in supporting or enhancing the lives of the people 
of Cuba. They have done everything to suggest that all they 
want to do is support their own lives and enhance their own 
lives through an iron fist mentality that destroys every hope 
that everybody in Cuba wants to have.
    And so this talk that we keep hearing about changing our 
policy with Cuba, I think it is irresponsible to suggest that 
without backing it up with how you think that is going to help 
the people of Cuba when you have the Castros in charge who are 
bound and determined and do not want to see prosperity for the 
people of Cuba.
    So with that, I would ask for comments from the panel. 
Thank you.
    Chairman Berman. The gentlemen have 1 second each. Under 
the policies announced at our first hearing, I have to say to 
the gentleman that his time has expired.
    The two issues that you raised, I feel, can be worked in 
through this hearing through other people, and I now call on 
the gentleman from New Jersey, Mr. Payne, and yield him 5 
minutes.
    Mr. Payne. Thank you very much, and I am sorry I can't be 
as gracious as the ranking member and yield all of my time to 
you, but it will be interesting to hear the answers to your 
questions.
    You know, I am wondering if there will really be a real 
kind of partnership with Latin America. In my opinion, we have 
never had a real partnership. I think President Kennedy tried 
the Alliance for Progress and the move in the middle 1960s, but 
in my opinion a policy toward the Caribbean, Central and South 
America has not really been, in my opinion, a fair policy.
    We, I think, in the past were pretty exploitive. We 
controlled the oligarchies and the ruling parties. We supported 
dictators, which we hear people talk about. There are people 
who have dictatorial tendencies today. We are very critical of 
them. However, during the '30s, '40s, '50s and 1960s we tended, 
and even further on, to be supportive of people who were not 
very fair to their own constituents.
    I don't know. I think, Ambassador Reich, you seem to 
certainly have the most experience, seven presidential 
appointments under three Presidents and have certainly been 
involved in Latin America much more, I believe, than probably 
or as much as anyone else here, and I just wonder.
    We don't have much time at these hearings. Our chairman has 
a strong gavel, but I wonder if there were some--you know, the 
way we hear it now is these new leaders are indigenous. Some of 
them feel that perhaps they should move toward socialism. We 
condemn socialism in Latin America perhaps.
    Socialism may not be the worst thing for Latin America. 
Leaders are elected. They are elected primarily I guess because 
they are looked at as those who can change the plight of the 
people. There is abject poverty in Latin America. The wealthy 
tend to do pretty well.
    So I am just wondering. Did we ever have a flawed policy, 
in your opinion? I mean, listening to the way you are speaking 
is that all of this new stuff is wrong. Therefore, I guess you 
can logically conclude that what was going on in the past was 
all good.
    I just wonder like in Venezuela was it a great government 
and leadership in Venezuela in the old days? Did Bolivia have a 
very just leader? We hear about the new leader of Venezuela is 
very bad. The new Bolivian leader is not good for their people. 
Of course, it is clear that there is a very strong criticism of 
Castro, and he has really kind of ruled with an iron fist and 
not allowed people to have expression.
    Is there any way? I mean, if we go down there with this 
opinion is there any way that we can change policy, or was the 
policy in the past good and this new regime of leadership bad? 
Maybe you could in about the 2 seconds I have left if you could 
say something about that?
    Chairman Berman. A minute and 10 seconds.
    Ambassador Reich. Very quickly, in no way am I going to say 
that some administrations were all correct and some were all 
wrong. I think that U.S. Governments in the last 50 years, 
which is like the period you are looking at, have made 
mistakes, including those that I have worked for.
    However, I think that we learned from the lessons of the 
1940s, 1950s and 1960s, that you mentioned, and by the 1970s 
and 1980s our bipartisan policy, and although I am very 
critical of say former President Carter in some things I will 
give him credit for beginning the human rights policy that 
President Reagan really picked up and ran with.
    When President Reagan came to office in 1981, 90 percent of 
the population of Latin America lived under military 
dictatorships. When he left 8 years later, 90 percent--more 
than 90 percent--lived under democracy. They were imperfect 
democracies--they still are--but that was a very important move 
in the right direction.
    Under President Reagan we tried to help the people of the 
Caribbean. I am proud of having been rebuffed by Baby Doc 
Duvalier. He would not receive me when I was head of USAID for 
Latin America and the Caribbean because I said that we were not 
going to give money to a corrupt government that violated human 
rights.
    Chairman Berman. Ambassador, I am sorry to interject, but 
the time has expired. Again, I am confident you will have a 
chance to expand on that.
    Ambassador Reich. Sure.
    Chairman Berman. The gentleman from California, Mr. 
Rohrabacher, is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Let me 
just welcome Ambassador Reich, an old friend who I have worked 
with over many years, and just call attention to his last 
statement and underscore that that when President Reagan became 
President of the United States 90 percent of the people of 
Latin America lived under dictatorship. Eight years later, 90 
percent of the people of Latin America lived in democracies.
    That was no accident. That was a strategy that we would 
change. It was a change in the Cold War strategy of using 
democracy as a means to promoting something positive to defeat 
Communism rather than simply being against Communism and 
supporting caudillos like Samoza and others that had dominated 
Latin America for so long.
    And let me just note that Ambassador Reich played an 
important role in that transition, and for that the American 
people should be very grateful. Unfortunately, we see what was 
accomplished during the Reagan years and since seems to be 
eroding today.
    We see very dangerous trends in Venezuela, of course, and 
Bolivia and even in Nicaragua where the democratic opposition 
was split in Nicaragua and former Marxist authoritarians are 
now back in power. Those things should be of great concern to 
us.
    For example, this weekend there is an election in El 
Salvador. The election this weekend in El Salvador should be of 
great concern to all of us. We have former Communist 
guerrillas, people who would have instituted a Communist 
dictatorship on that country, who now are participating in the 
democratic process, are running neck and neck with people who 
are committed to democracy and have brought friendship and 
progress, friendship to the United States and progress to their 
own people.
    Let me just note, Mr. Chairman. You stated that there are 
$54 billion in remittances that go from Latin America to the 
United States every year. If we end up with left wing 
caudillos, which are replacing those former right wing and 
Samoza type caudillos that dominated Latin America, we should 
not be expected to have the same policies toward those 
governments as we do toward democratic governments.
    Specifically, if countries like El Salvador decide to turn 
to the left and to anti-American regimes like the FMLN then 
they should not expect to have a policy that permits the $4 
billion of remittances that come from the United States to El 
Salvador. That should be true of other countries as well.
    Ambassador Reich, what I am getting at is the people of 
Latin America who decide to go with democracy and decide to be 
friends of the United States should be treated differently than 
those governments that become hostile to us. Would you agree 
with that as a fundamental proposition in dealing with Latin 
America?
    Ambassador Reich. May I? Yes, Congressman Rohrabacher, I do 
agree. The United States simply doesn't have the resources to 
be equally generous, let us say, or open with every country in 
the world.
    When a country, a government, decides that it is not going 
to be a friend of the United States, when it decides to 
undermine our interests, whether it be on the international 
scene or even domestically, for example, by violating the 
rights that we consider important or by kicking out our DEA 
offices that we consider important or by throwing out a 
military base as in Manta in Ecuador that helps the entire 
region in the surveillance of antinarcotics or when they 
confiscate U.S. properties or expel U.S. diplomats, I think 
they are sending a signal that they don't want to be our 
friends.
    Now, that doesn't mean we should break relations. It means 
we should certainly not subsidize them.
    Mr. Rohrabacher. Right.
    Ambassador Reich. I have said when I was a government 
official that we should not have normal economic relations with 
countries that are hostile to the United States. I don't know 
that that is a very radical position.
    Mr. Rohrabacher. I think when the people of El Salvador and 
other countries go to the polls they are determining the 
government that they will have, and they are also determining 
their relationship with the United States.
    They should know that if they choose a hostile government 
to the United States like the FMLN down there in El Salvador 
then that will be determined, the policies we have on things 
like remittances and other economic cooperation.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    To abuse the privileges of the chair, the $54 billion that 
I referred to was not foreign assistance appropriated from 
taxpayers' funds. It was the size of individual remittances to 
this hemisphere made by individuals under their own freedom of 
choice.
    Mr. Rohrabacher. That we permit them to do that. We permit 
those remittances.
    Chairman Berman. I thought we were against takings, but 
never mind.
    The gentleman from New Jersey, Mr. Sires, is recognized for 
5 minutes.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for holding 
this very important hearing today.
    You know, one of the challenges facing the Obama 
administration is how to best deal with the current poor 
relations with countries such as Nicaragua and Bolivia. How do 
we move forward in light of blatant hypocrisy regarding fair 
elections and dismissal of U.S. diplomats?
    Do you anticipate any confrontation from these countries at 
the summit, either one of you? Mr. McLarty?
    Mr. McLarty. I think you raise a very fair question. I 
think we have to be very thoughtful in how we approach some 
relationships that you note and where there have been positions 
taken that are clearly either not in our interest or, more 
specifically, disrespectful of our Government I think we have 
to be very firm and clear in that regard.
    Having said that, I think we need to be very careful not to 
work against our own interest by overreacting or making a bad 
situation worse by complicating it with unnecessary statements 
or positions, so I think we need to be very measured, very 
careful, but when there is a specific situation that we need to 
firmly speak out on and reject we need to do that, whether it 
is at the summit or in the ordinary course of our diplomatic 
business or some of the other business that the Congress 
undertakes in terms of trade preferences and other programs 
authorized by the Congress.
    It is hard to predict how any summit meeting of this type 
will go with 34 heads of state. My sense is in talking to 
leaders around the region that it is likely that those who 
might be confrontational or disruptive will feel an increasing 
sense of isolation and an increasing sense not to be disruptive 
or destructive in their discussions, so that is my hope and 
that is my belief in how I think this summit will go.
    Mr. Sires. I just think that sometimes some of these 
countries, in order to cater favors with other countries, let 
us say Venezuela, may go to the summit and really be aggressive 
and really be confrontational because they will get favor 
status let us say with oil.
    I mean, oil is a very powerful tool to make countries to be 
confrontational and have someone up front do the confrontation. 
Mr. Hakim, would you address that?
    Mr. Hakim. There is a problem with the framework that says 
some countries are our adversaries and other countries are our 
friends.
    We are talking about a continent with 34 other countries. 
Some really are adversaries or enemies, but these are 34 
countries that are very different. They have different 
histories. Some have very turbulent histories. Some are richer 
countries. Some are more stable with stronger institutions.
    One would expect a great variety of governments in these 
countries, and it seems to me that we ought to not be looking 
at the short run, the immediate tension, to punish this leader 
or that leader. We are a country that has a 200-year history of 
democracy. Our job ought to be to assist those countries that 
are moving toward democracy, to try to persuade those that 
aren't.
    There is no good reason for the United States, for example, 
to pursue a fight with Bolivia. Bolivia is a small, tiny 
country. What we should do is continually try to find ways to 
wean it away from the influence of Venezuela.
    Our ending of trade preferences for Bolivia. It seemed like 
a reasonable response to having our ambassador expelled, to 
having the DEA expelled. No question. On the other hand, there 
are some 100,000 jobs at risk, poor workers who will suffer. 
This doesn't help. It pushes Bolivia closer to Venezuela. It 
seems to me that it doesn't serve the purpose that we want to 
serve over the longer term.
    And let me just bring in the Cuba question. You said that I 
could work it in. I want to be very, very specific.
    Chairman Berman. In your 25 seconds.
    Mr. Hakim. Very, very specific.
    Mr. Sires. I did want to work it in myself, but----
    Mr. Hakim. You know, Brazil has promised to invest 
something like $1 billion in Cuba. Now, you can say that that 
is not going to help the average Cuban person, that it is going 
to largely go to the government.
    I can't answer that. I don't have the data to answer that 
question, but I do know I would rather have Brazil investing in 
Cuba than having only Venezuela there. I think Brazil is a 
democratic government and is going to go to Cuba with a 
commercial relationship in mind. This is much healthier than 
simply leaving it to the Chinas and the Venezuelas.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from California, Mr. Gallegly.
    Mr. Gallegly. Thank you very much, Mr. Chairman, and I want 
to commend you for being my kind of a chairman with the way you 
run the trains on time.
    Welcome to all of our witnesses. Mr. McLarty, good to see 
you back. We worked together many years ago when you had a 
different hat on and great respect for the challenges that you 
faced during those times.
    I am going to try to be as brief as I can so that we can 
have a chance to have a couple answers on a couple questions, 
but one that really kind of has been a long-term issue that I 
have associated myself with is the issue of immigration that we 
have and the challenges that we face.
    You mentioned the word comprehensive immigration reform, 
and now is probably the time. Now, reasonable minds can differ 
on the definition of comprehensive immigration reform, but it 
would be very hard in a one-on-one to debate, to argue that it 
is not de facto amnesty.
    We talk about how many folks we have illegally in the 
country today. No one really knows. Some say 12 million. Some 
say 20 million. We do know that the 12 million figure was used 
7, 8, 9 years ago. It would be hard to argue that that number 
has not increased. I think probably in my own mind the number 
is probably closer to 20 or maybe even greater.
    Can you tell me how you believe that from a political 
standpoint our current Majority here can aggressively try to 
persuade the American people that de facto amnesty, 
comprehensive immigration reform, the time is correct when we 
are facing over 10 percent unemployment, when we take a look in 
many states like California, when we take a look at the 
challenges on education, health care and the criminal justice 
system with almost a third of our jails--county jails, city 
jails, state and Federal penitentiaries--with populations by 
principally about a third that are illegally in the country 
having committed a crime; not an immigration violation?
    How can you tell me that you really think without taking 
many members off the political cliff that this agenda can move 
forward?
    Mr. McLarty. I don't think there are very many persuasions 
on the left or the right that feel our current immigration 
program and system is working in a satisfactory manner. I would 
start from that premise.
    And I don't think you can argue persuasively that the 
current policies we have reflect the realities that you 
outlined in your comments, so I think that calls for a serious 
addressing of the issue and hopefully, hopefully the ability to 
achieve some type of consensus and reform.
    I don't think you can persuade the American people to have 
outright amnesty, even though there may have been reasons for 
those people coming here that were very personal, very family 
oriented, but nevertheless they did not follow the law so there 
has to be some way to address the realities of the 12 million 
or 20 million people that are here and how we deal with that.
    I would suggest that from a security standpoint and for 
many more reasons it is essential that we try to address that 
problem. I think you have to have a very comprehensive program 
to have some restitution of those people who are here if they 
are going to earn citizenship.
    I think that has to be done, but I would start with even a 
more basic premise, and that is we have to start with securing 
our borders first and then work toward comprehensive 
immigration.
    Finally I think you can make the case from the American 
people's standpoint. I realize the economic situation in our 
country. I understand your point. You have made it very clearly 
and with great sincerity.
    But I would suggest that our economy is strengthened if we 
can get our immigration laws in much better order than they are 
today, not detracted from, and therefore I think the well being 
of all of our citizens would be enhanced with the proper type 
of reform that has got to be done on a bipartisan basis. That 
is what Government Bush and I are working to try to come up 
with a proposal.
    Mr. Gallegly. I certainly can't disagree with a great deal 
that you said, but all too often around here the devil is in 
the details. If we can collectively work on it, maybe we will 
be able to move ahead in a positive way.
    I wanted to talk about Iran, but I see my time is down to 1 
second. Out of consideration for my chairman, who I admire 
greatly, I yield back.
    Chairman Berman. I appreciate that. Given the subject you 
talked about, I will refrain from abusing the privileges of the 
chair.
    The gentleman from Texas, Mr. Green, is recognized for 5 
minutes.
    Mr. Green. Thank you, Mr. Chairman. I ask unanimous consent 
to have my statement placed into the record.
    Chairman Berman. Without objection. That will be the order.
    Mr. Green. Coming from Texas, obviously Latin America is 
very important to us, particularly in energy. Many argue that 
energy security is an area where there is broad consensus in 
the hemisphere, and it should serve as a launching point for 
cooperation. In fact, this is one of the three main themes of 
the upcoming summit.
    Additionally, in May 2008 in a campaign speech President 
Obama proposed an energy partnership of the Americas. Having 
traveled with our Western Hemisphere Subcommittee to Bolivia, 
and their problems with energy are really not with the United 
States. It is actually with their neighbors as a good example, 
although Ecuador and obviously Venezuela is a different 
situation.
    How do you all recommend that President Obama approach the 
topic of energy security at the summit and then our policy with 
Latin America more broadly on energy, both in Latin America, 
but also for our own citizens? Mack?
    Mr. McLarty. Congressman Green, I think we have had 
discussion and dialogue this morning about the proverbial glass 
being half full or half empty, and we have appropriately I 
think discussed some of the concerns, deep concerns, problems 
and emotional issues that we all feel about the region.
    Energy is clearly the glass is half full. This is an area 
of enormous opportunity and logical cooperation, and I think it 
certainly goes to our economic security in the United States.
    I think many of the major countries in the region are very 
receptive and have already demonstrated that, particularly 
Brazil and the fact that we are holding this meeting in 
Trinidad and Tobago, I think one of our largest natural gas 
producers to the United States.
    I mentioned in my testimony, Mr. Chairman, that 50 percent 
of our energy comes from this hemisphere, so it is a very 
logical area for us to deepen our relationships and 
partnerships and particularly in the renewable energy side.
    You have Brazil as one of the few countries in the world 
that is truly energy independent because of their very skillful 
use of ethanol and their bountiful blessings of sugar cane in 
their country, but they have been very, very skilled in that 
regard.
    So I think there are a lot of areas we can work together. 
Obviously with the State of Texas it is a natural. You will 
have some major private sector players that will understand 
that, and we would be foolish not to take advantage of that in 
the Summit of the Americas and not only to discuss at the 
summit, but have an ongoing effort with our Secretary of Energy 
and other key Cabinet members.
    Mr. Green. Any other responses?
    Ambassador Reich. Yes, just quickly. Probably Mr. Delahunt 
may think that I am picking on Venezuela a little too much, but 
part of our energy problem, frankly, relates to the fact that 
Venezuela's oil production has dropped by one-third since Mr. 
Chavez has come to office.
    We are far too dependent on oil from other sources, from 
outside our borders, as President Obama has said and other 
Presidents of the United States, and I think it is particularly 
important, especially at a time like this where the price of 
oil is relatively low, certainly relative to where it was 6 
months ago or 9 months ago at $147.
    At $45, we should take advantage of that and begin to end 
our dependence on unstable countries led by unstable leaders 
such as Venezuela and others; not just picking on Venezuela, 
but other countries, and develop our own resources.
    Mr. Green. Thank you. I only have time for one more 
question.
    Because this committee held a number of hearings last 
Congress, and I am a supporter of the Merida Initiative and 
what is happening in Mexico, again having a lot of friends and 
spending time in Mexico real often myself, seeing the tragedy 
of what is happening in northern Mexico.
    My concern right now, and in fact there was a meeting of 
the Texas delegation bipartisan today on moving the equipment 
that was made, all the decisions made to there. To the extent, 
what do you believe the United States needs to review its 
counternarcotics efforts, and what recommendations do you have 
in this area? Do you expect the drug policies to come up at the 
summit?
    Additionally, what can we do on our side of the border to 
help reduce the violence? We had hearings on trying to get 
control of the firearms that come through the United States and 
particularly Texas to Mexico. Some folks have heard it. Mack, 
you understand it.
    In Texas, we think it is our God right to own every firearm 
there is, so we don't want to export them to Mexico, but we 
also know that we have to deal with it on that side of the 
border, but also the technology and the help that we want to 
give the Mexican authorities.
    Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from Arkansas, Mr. Boozman, is recognized for 
5 minutes.
    Mr. Boozman. Thank you very much, Mr. Chairman. I want to 
welcome all of you, but especially Mr. McLarty. He is a native 
son of Arkansas, and we are very, very proud of him and the way 
that he has served his country and state in a variety of 
different ways.
    One of the things I would like to ask that is certainly 
related, I grew up in Fort Smith, Arkansas, and through the 
years we have seen a number of different situations where 
because of economic plight we have had a number of refugees 
pass through there.
    I guess because of the economy, the dire straits in the 
economy, looking forward can you predict if you see? Most of 
these people were fleeing not for freedom or political things. 
They were just literally starving to death. Can you look 
forward and kind of give us a prediction if you see not naming 
countries, but just what are the chances of that?
    And then again can you give us some advice as far as 
planning for the future to make arrangements if those kinds of 
situations occur? It seems to me like it would be the 
responsible thing to do now rather than have a situation in the 
future where we just have to react.
    Ambassador Reich. Anyone in particular?
    Mr. Hakim. If there is one country that is most in danger 
it is Haiti.
    It just is a very small island with close to 10 million 
people living at levels of an African country in the midst of a 
civil war, very different from any other country in the 
hemisphere. Clearly this is an unstable situation, and it is 
going to be like that for many years.
    The solution, the first solution, what we are trying to do 
now with many other countries, is to begin to provide Haiti 
with the basic elements for development, and that is absolutely 
crucial.
    Haitians in this country, and there is a large population--
the vice chairman knows that--are providing a lot of income to 
Haiti through remittances.
    I don't think there is any magic wand on this. I think if 
war breaks out anywhere we have the large Central American 
population in Washington and throughout the country in part 
because of the wars in Central America. There are lots of 
different reasons for migration. Some of it is economic. Some 
of it is political. Some of it is for security reasons.
    The one country that is in obviously most danger right now 
is Haiti, and it probably will be for the next 15, 20 years.
    Ambassador Reich. Sir, the United States has provided the 
equivalent of two Marshall Plans to Latin America in the post 
war era, the equivalent in dollars. We should continue our aid 
programs, but we should also recognize that the main problem in 
Latin America in development--the answer to your question is 
economic development.
    If people have decent jobs they will stay in those 
villages, whether they be Haiti or Mexico or any other country 
that sends immigrants to the United States. The main problem in 
my experience--I ran our aid programs for Latin America; this 
is what I studied in graduate school--is corruption.
    The money that has gone particularly from governments in 
ODA, official development assistance, has not been put to good 
use either because it has been stolen, outright stolen, or been 
wasted, a lot of it. A lot of it has done good. I can tell you 
in Central America back there in the Reagan administration the 
Central America that we saw in 1981-1982 is totally different 
from what it is now.
    Now, unfortunately I think it has the potential to revert 
if we don't do something. What we can do, frankly, is continue 
to open our markets. This is why the last administration put so 
much emphasis on trade because we don't have other resources. 
We don't have huge pots of money to provide to a country like 
say Mexico with 100 million people, Brazil with 180 million 
people. Fifty-three million of them live on $2 a day. That is 
the equivalent of an entire country.
    But the issue is corruption and goes back to Congressman 
Mack's question about the crime. The crime that I am referring 
to is the crime, for example, that you see in Bolivia where a 
private oil company owner on his way to give a bribe of several 
hundred thousand dollars in a suitcase to the head of the oil 
company is murdered and the money is stolen. Now, who did it? 
It should be investigated.
    Crime in Venezuela. A prosecutor by the name of Danilo 
Anderson investigating government corruption is murdered. The 
investigation stops.
    Chairman Berman. The time of the gentleman has expired.
    The chairman of the Western Hemisphere Subcommittee, Mr. 
Engel, is recognized for 5 minute.
    Mr. Engel. Thank you, Mr. Chairman, and let me say, Mr. 
Hakim and Mr. McLarty, it was good having dinner with you last 
night. I want to just make a couple of statements and then ask 
anybody to comment on them.
    First let me say, Mr. McLarty, you were President Clinton's 
Special Envoy for the Americas, and in my opinion you were 
extremely effective, and I think in part because of a 
combination of your knowledge and your ability to get things 
done, but also because of your relationship with President 
Clinton.
    The Bush administration eliminated the special envoy 
position. I think that was unfortunate, but President Obama has 
said that he will bring that position back to the White House, 
so I am happy about that and want to know if anybody might want 
to comment on that.
    Let me also say, Mr. McLarty, you had mentioned about 
President Lula in Brazil saying that the best way for the 
United States to help Latin America is to swiftly revive our 
own economy. In light of that, what specifically could 
President Obama promise at the summit that would help our 
neighbors in the Americas as they deal with the financial 
crisis?
    Let me throw out a few things. Would it be useful for us to 
increase U.S. funding for the International Monetary Fund to 
help countries in the region deal with the crisis or increasing 
funding for the development banks like the Inter-American 
Developmental Bank and the World Bank? Let me ask that.
    And let me also say that in my opening remarks, I talked 
about a few actions that President Obama could take in the 
hemisphere that could be cost neutral, but symbolically 
important.
    One of the things might be a greater commitment to 
combating illegal firearms trafficking from the United States 
to Latin America, which I think could in part be shown by 
sending the Inter-American Convention Against the Illicit 
Manufacturing Of and Trafficking in Firearms, Ammunition, 
Explosives and Other Related Materials--we call it CIFTA; 
sending that treaty to the Senate for ratification.
    If anybody would like to comment on any of the things that 
I have mentioned? Thank you.
    Mr. McLarty. I will try to comment very quickly. Number 
one, I do think the envoy position should be reestablished, and 
President Obama during the campaign promised that.
    I think it can be quite an effective coordinating position 
if done properly, and of course you have already seen other 
special envoys appointed to other regions of the world, so I 
think it would be a particular mistake not to have a special 
envoy for the region.
    Number two, in terms of the overall U.S. economy, I think 
the first step is for President Obama to really engage in 
serious consultations with major trading partners within the 
region and also other important relationships in the region due 
to proximity, as well as trading relationships.
    Thirdly, I think there is a case to be made for increased 
support of the agencies that you noted, but there has to be, 
and I am sure you would fully agree, strong accountability if 
any additional funding is put forth.
    Those would be the three comments I would make, and I would 
defer to my other colleagues to finish your question. Thank you 
very much for your gracious hospitality last night.
    Mr. Engel. Thank you.
    Mr. Hakim. On the specific items, I think that it should be 
mentioned early on in the crisis last fall the United States 
did make available $30 billion in currency swaps to four 
countries, two of them in this hemisphere, Mexico and Brazil.
    This was very important. It didn't cost the United States 
anything. It was a financial arrangement, but it did reassure 
investors in the two countries and prevented a real collapse of 
the currency potentially in Mexico and Brazil or inflation.
    Mr. Engel. And those two countries I think are the most 
important in terms of our bilateral relationships with them.
    Mr. Hakim. That is also correct. With regard to the 
international financial institutions, the numbers are huge when 
you look at what the countries might need.
    The estimate of the World Bank president for all developing 
countries was something like $300 billion to $700 billion to 
just make up the kinds of resources that will be lost. For 
Latin America I have seen estimates between about $70 billion 
to $250 billion.
    So the institutions do need more resources. There are some 
imaginative ways to get at those resources. They have been 
writing about them in various places. For example, the special 
drawing rights.
    There are ways to increase the resources and flexibility of 
the IMF particularly, which is the one that handles the large 
amounts of money, but also the Inter-American Development Bank, 
the World Bank, the Andean Development Corporation. These are 
all organizations that have good track records.
    Mr. Engel. Let me just say, because my time is up, as 
chairman of the subcommittee, I will be at the summit in 
Trinidad and I hope that we can raise some of these things 
because it is really important.
    Thank you, Mr. Chairman.
    Chairman Berman. And your time is up.
    The gentlelady, the ranking member, Ms. Ros-Lehtinen, is 
recognized for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Thank 
you for excellent testimony, gentlemen.
    Would you all agree that failing to move forward with a 
Colombia FTA sends a negative message to our allies that the 
United States cannot be relied upon and that cuts in spending 
for Mexico that were included in the omnibus tells the Mexican 
people and those fighting the drug lords that they should not 
count on the full support of the United States?
    Mr. Hakim, on Cuba, first of all, condolences. A Cuban 
wife. You can commiserate with my husband, Dexter, on your 
plight.
    Mr. Hakim. I would love to do that.
    Ms. Ros-Lehtinen. All right. You refer in your written 
testimony to the need for an end to the Cuban embargo, whether 
justified or not, so are you suggesting that we ignore the 
prerequisites in U.S. law about freedom for political 
prisoners, free elections, multi-party system, labor unions, 
simply to send a message of change to the hemisphere?
    Thank you to all three of you. Whoever cares to answer 
would be fine. Thank you.
    Mr. McLarty. I will take the first two very quickly and 
then defer, Peter, to you and Ambassador Reich.
    Number one, on the Colombia Free Trade agreement I have 
already said in my written testimony I think President Obama 
should go to the summit either with the passage of the Panama 
FTA, which I think is first in the queue, or at least a clear 
strategy to get it passed and with a strong forward lean toward 
the Colombia FTA.
    I do think you have to have very specific measures 
regarding human and labor rights, but I am on record supporting 
that agreement, Madam Vice Chairman.
    As far as the support of Mexico, I have tried to be very 
strong and clear in my position, in my remarks, regarding our 
support of Mexico. I don't think it is simply, however, a 
matter of just more money. I think it is active engagement of 
focus.
    And going back to an earlier question in terms of Chairman 
Engel's comments about the trafficking of guns, in no way does 
this get into any of the gun issues. We feel just like 
Congressman Green in Arkansas.
    Ms. Ros-Lehtinen. Thanks, Mack. I am going to cut you off. 
Peter?
    Mr. Hakim. First let me just on the Colombia issue. I would 
like to put it in the positive way that if we were able to move 
ahead with this, if we were able to sort of approve this 
agreement in Congress, I think it would mean a good deal to our 
relationships. It would increase our credibility across Latin 
America, so I agree with you, but I think the positive is 
better than the negative on that one.
    On Cuba, yes, I probably should commiserate with your 
husband, but let me say I think we are all after the same 
thing. If you read the full item under Cuba in there, I think 
Obama should not only go to Cuba with some idea there is going 
to be some opening, but that he should make clear that he 
expects the other countries in Latin America to worry about 
political and economic opening, to worry about democracy in 
Cuba as well. In other words, that shouldn't be just the United 
States' interest. It should be the hemisphere's.
    Right now it is impossible to work with the rest of the 
hemisphere because our policy is so far out of line with 
everybody else in the hemisphere. I think we would move much 
more quickly, much more steadily, toward a democratic opening 
in Cuba, frankly--my view--if in fact we were able to work with 
countries like Spain and Brazil and Canada, all who have rather 
extensive relations with the country, and I would much rather 
have them have the relationship than the Venezuelas, the Irans 
or the Chinas, frankly.
    Ms. Ros-Lehtinen. Thank you. Ambassador Reich, what do you 
think of this concept of lifting the embargo on Cuba with no 
preconditions and yet for Colombia oh, let us whack them with 
all of these conditions?
    Ambassador Reich. I have never seen in my years in 
government a government more determined to negotiate with 
itself. The Cubans have yielded absolutely nothing in this 
debate. All the concessions are unilateral on the part of 
whether it is the Carnegie Endowment report, whether it is 
Senator Lugar's staff report. They say just lift the embargo.
    Lift the embargo, and after 50 years Fidel Castro will 
immediately release political prisoners, allow free trade 
unions, do all the things that he has never done. I don't know 
what they are importing, frankly, from Latin America.
    Ms. Ros-Lehtinen. Thank you very much, gentlemen.
    Ambassador Reich. Yes.
    Ms. Ros-Lehtinen. Thank you, Mr. Chairman.
    Chairman Berman. The gentlelady has yielded back her time.
    The gentleman from Virginia, Mr. Connolly, is recognized 
for 5 minutes.
    Mr. Connolly. I thank the chair, and I want to say hello to 
Peter Hakim. You may recall we used to work together 20 years 
ago when I was on the Senate Foreign Relations Committee.
    Mr. Hakim. Right.
    Mr. Connolly. It is fun to be back, and you are still here.
    Let me ask a question. I am somebody who believes that 
focus often helps. When we look at the summit in the CRS report 
prepared for today's hearing, they point out that there are 600 
initiatives that have been introduced through the summit 
process.
    What constructively can really be accomplished with that 
kind of diffuse lack of focus, and how do we monitor progress 
on such initiatives? Frankly, is the summit the most useful of 
platforms for the United States in the pursuit of diplomacy in 
the region?
    Mr. Hakim. Let me, because I am just going to plagiarize 
from something Mack McLarty said yesterday, so if I let him 
talk he will say it and then I won't have something to say.
    But the idea of the summit initially was not to sort of 
come up with mandates for the hemisphere, to come up with huge 
plans, but really to change the tone and texture of relations 
among the countries of the hemisphere. There hadn't been a 
meeting of the heads of state since 1967, more than 25 years 
since there had been a meeting.
    Just the very fact that the U.S. called the meeting, asked 
the heads of state, suggested that there was something of a 
community of nations, probably a loose community at best, but 
still that there is something that binds the hemisphere 
together.
    I frankly have never thought the working through this list 
of deliverables, this list of mandates, initiatives, is 
terribly helpful. I think the most important thing is to get 
the leaders together to talk.
    At this summit particularly I think the formal agenda will 
be less important than the open discussions among the 
Presidents, and obviously with the spotlight on our President, 
President Obama.
    Mr. Connolly. Mr. McLarty?
    Mr. McLarty. Well, first of all, thank you for bringing us 
back to the real world and underscoring some accountability in 
the process and a bottom line; that is, real results. What 
kinds of programs really help people or help strengthen 
democracies? I think you are right on point. Obviously 600 is 
far too many.
    I agree with Peter in terms of the overall framework of the 
summit, the tone, the relationships, but I do think you can 
have a measured number of specific initiatives. I think you can 
have more than one or two because you had the full Cabinet, who 
are anxious to engage in the region for the most part, who have 
common interests or common problems, and I think on a couple of 
the much higher level priorities like security in Mexico you 
need to have a strong engagement by the Executive Branch on 
that.
    So I think that is how the process should be broken down. I 
tried to suggest some at least ways to pursue that in my 
testimony. Thank you.
    Mr. Connolly. Ambassador Reich?
    Ambassador Reich. Yes. On democracy, I think we need to be 
very clear that democracy is more than just an election. I 
referred to what I said in my prepared remarks. A lot of the 
heads of state that are going to the summit and go to other 
summits are democratically elected leaders, and a lot of people 
say as long as they are democratically elected we have to 
respect what they do. I disagree.
    To be a democratic, a small D democratic, you have to rule 
democratically. It is not sufficient. It is essential to be 
democratically elected, but it is not enough. You have to 
respect the rights of the people, provide opportunities. We can 
help provide those opportunities, and I agree with my 
colleagues as to some of the things that we can do.
    I will give you a specific example with Brazil. When 
President Lula came in, and it refers a little bit also to Mr. 
Payne's question about whether we reach out to governments that 
we don't necessary agree with. When President Lula was elected 
in Brazil, I was the Assistant Secretary of State.
    He had been a far left radical in Brazil, but we recognized 
the fact that he was also a small D democrat, had run for 
President three times, had lost, had never become violent, 
never become a terrorist like some of his colleagues, and we 
made a decision to work with him.
    President Bush reached out to him, set up a series of 
bilateral Cabinet level working groups across the economic and 
social spectrum that assisted enormously in some of the gains 
that Peter Hakim mentioned earlier that Brazil has achieved in 
the last few years under President Lula.
    We can do this with left of center democrats, with right of 
center democrats. We just can't work with extremists.
    Mr. Connolly. Thank you. Thank you, Mr. Chairman.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New Jersey, Mr. Smith, is recognized for 
5 minutes.
    Mr. Smith. Mr. Chairman, thank you very much.
    You know, on that question of working with President Lula, 
he will be in town this week. The House has a resolution on the 
floor later on today, H. Res. 125, that speaks to a very 
serious problem of child abduction.
    There is a man in my district or just outside of my 
district, David Goldman, who had not seen his son for 4\1/2\ 
years, utterly frustrated by the abductors, the kidnappers. His 
wife is dead, so there is no mother involved. She died last 
August.
    We have been trying very hard to get the Lula government to 
step in. I do believe that there are people within his 
government who get it, who understand it, that they have an 
obligation under the Hague Child Abduction Treaty. Words are 
good, sentiments are good, but we need actions and deeds.
    Any one of the panelists might want to speak to this; there 
are 51 cases arising out of Brazil and several hundred in 
Mexico. The number is 2,800 children worldwide who seem to fall 
into the category of Hague where they should be returned home 
to their habitual residence and to the left behind parent, yet 
they have not been.
    It seems to me the summit offers an opportunity to 
accelerate the training of judges or the call for the training 
of judges. Many of the judges were not Hague literate, 
particularly at the lower court level, who were dealing with 
this case.
    Again, David had not seen his son for 4\1/2\ years. I was 
there when they had their reunion, and it was a moving 
experience. The son recognized his father. By an hour's time 
length they were actually playing around the world basketball 
and laughing and joking just like dads do, and yet they are 
still separated, father and son.
    Secondly, Frank Wolf and I tried to get into Cuba a month 
ago to meet with Dr. Biscet to raise the issue of political 
prisoners who are today being tortured and mistreated in the 
Cuban gulags. It seems to me that we need to say to our 
President if you are going to make any move whatsoever, and to 
the Congress, absolutely the precondition has to be the 
unfettered release of these brave, nobel--the best and the 
brightest and the bravest of Cuba who suffer for democracy and 
for human rights.
    They are the Vaclav Havels, the Lech Walesas, the Harry Wu, 
the Wei Jingshengs of Cuba. They are great people, and today 
they languish and are so mistreated. So if you could speak to 
those too?
    Ambassador Reich. Mr. Smith, I am a little bit familiar 
with the Goodman case. I think what it points to, frankly, is 
the need for one of those elements that is inherent in this 
entire hearing, the importance of the rule of law. We haven't 
specifically mentioned it implicitly, but it has been explicit.
    It is an essential element to the economic development, 
which in turn affects terrorism, immigration and everything we 
have been talking about, and I would really hope that the 
Brazilian authorities would recognize the human tragedy 
inherent in this case and return the child to his natural 
father, but I am not a lawyer. I don't represent anybody in 
this case.
    As far as Cuba, I agree with you completely. What I don't 
understand also, and I am glad you mentioned the case of 
Biscet, a doctor, an Afro-Cuban who has been in jail because he 
opposes the government's forced abortion policies, for 
example--I mean, this is a moral case--and yet Castro despises 
him personally because, among other things, he is Afro-Cuban, 
and Castro believes that all Afro-Cubans should be very happy 
with him because he told them that he had liberated them.
    In fact, that is one of the most racist government 
structures in the world. There are very few members of Cuban 
minorities in the Castro Government.
    I will yield the balance of my time.
    Mr. Hakim. I can't really speak to the Brazil case, but let 
me just say I am always concerned about preconditions. I would 
like to see all the prisoners released, no question. I sit on 
the advisory committees of several human rights groups and the 
like.
    But the question is, how do you get it done? That would be 
the question, and I would want somebody who was a professional 
negotiator to be involved. I think the pressure from other 
Latin America countries, from European countries, would be 
helpful. As long as Latin America countries see us as sort of 
their adversary on the issue of Cuba they are not going to be 
helpful on many of the issues we want.
    It seems to me that the outcome in a year, 6 months better, 
3 months even better, of beginning to get these prisoners out 
of jail and back to good health and back to good nutrition is 
crucial, but the question is to make it a precondition may in 
fact lengthen the time they are in jail. They have to get out.
    Chairman Berman. The time of the gentleman has expired.
    The gentleman from New York, Mr. Meeks, is recognized for 5 
minutes.
    Mr. Meeks. Thank you, Mr. Chairman. So much to say, so 
little time. Let me just try to get some points out first 
before we run out of time.
    From my point of view, one of the things that is most 
important that we do do is I will deal with the trade 
agreements first. Two negotiated trade agreements that we have 
with the hemisphere that I think the world is looking at to see 
what we do.
    It is important that we pass Colombia and Panama because 
wherever I go in the western hemisphere or in South America 
those are the questions that are asked of me; whether or not we 
are going to pass it.
    When you look at what Colombia has done, as I think stated 
here, and if you look at Colombia now as opposed to 10 years 
ago there is no question of the tremendous progress that they 
have made and continue to make. If you look at it from a 
selfish point of view as far as whether or not there is a 
bilateral trade deal, whether or not we are accepting goods 
into our country and them accepting our goods into theirs, 
there is no question about it.
    So to me it sends and it would be important for the 
President of the United States to send a signal to the rest of 
the region that, yes, those trade agreements that we have 
negotiated with both Colombia and Panama, that we are going to 
pass them. I think that is tremendously important.
    I think that it is also important that we realize and talk 
about what we can do in the region as opposed to pointing 
fingers at everyone else, understanding that a lot of the 
countries that people are pointing at and others, there is 
abject poverty.
    I think it would be more constructive if we were talking 
about how the United States could be more facilitating or 
inclusion in the region for poverty reduction and social 
inclusion.
    That is also with reference to the Caribbean, who has to be 
an integral part of the conversation, because when you talk 
about these areas and we point fingers and you try to put 
people down, the fact of the matter is, and this is a good 
thing, that democracy is alive and well.
    I think sometimes people forget what democracy is. 
Democracy means that the people go and they vote and they 
choose the way that they live.
    Now, I have been to Venezuela. I have seen some of the 
elections there, and I have to tell you. The people have come 
out to vote. The same thing in Bolivia. Bolivia for the first 
time has an individual who is indigenous to the country, and 
therefore just as Presidents of this country go to their 
populous who supported them, that is what is happening with 
some of those Presidents there. It is called democracy.
    Now, democracy. You know, we call it democracy in the 
United States, yet 50 years ago, and this shows you how long we 
have come. Fifty years ago in the United States my father 
couldn't vote in the South, but we still called it democracy. 
We said if any country looked bad at us or called us names even 
then, we said shame on you. Who are you?
    Now we come back, and we have made great progress in this 
country, to go to these same countries and try to tell them who 
are you when it happened to us. We should first look in the 
mirror to determine the man in the mirror before we start 
criticizing everybody and saying we are going to divide this 
hemisphere up.
    The hemisphere itself in South America, they are trying to 
come together, but yet we are trying to divide them and make 
them choose. If you want to be with us, you have to be against 
them. What good is that?
    So what is the role that the United States is going to play 
with UNISOL, who is trying to come together so that they can 
have regional security, which if that happened that helps us. 
You are talking about you want to prevent it. If there is 
regional security that benefits us, so why aren't we talking 
about how we can properly interact with UNISOL so that we can 
make sure that we are now working well on the entire hemisphere 
for the benefit of all?
    I mean, part of this hearing, I wished that it wasn't 
televised because I think the people are laughing all over 
saying, What is going on here? And we call ourselves the United 
States of America who want to promote democracy? You know, it 
is almost hypocritical. That is the problem. Sometimes people 
are looking at us as hypocrites.
    This conference will give the President of the United 
States, to show the change that he was talking about not only 
domestically, but with foreign policy also, and so I think that 
there is great opportunity to happen in Trinidad, but we have 
got to talk with people, respect people and understand our own 
history.
    Chairman Berman. The time of the gentleman has expired.
    The cherry on the charlotte rousse here might be Mr. 
Delahunt because we do have votes. The real question is, do 
people want to come back? Do people want to come back 
afterwards?
    I have three suspension bills from the committee on the 
floor, and the ranking member does as well. We need a presiding 
officer.
    In any event, Mr. Delahunt is now recognized for 5 minutes. 
Every member has gone around once, so----
    Mr. Delahunt. I will be happy to return, Mr. Chairman. I 
will take the gavel.
    Chairman Berman. You will take the gavel? All right. Will 
you get the 5 minutes?
    Mr. Delahunt. You get 10, 15 minutes when you take the 
gavel.
    Chairman Berman. Do you want to come back?
    Mr. Delahunt. No. I don't want to hold our witnesses up. I 
will just echo the comments by my friend from New York, but I 
will do it in a more moderate tone.
    I think what I have heard here today----
    Chairman Berman. A first.
    Mr. Delahunt [continuing]. Is of concern because I think 
Mr. Meeks is correct. What I hear is words and rhetoric that 
would divide our policy in very simplistic terms into good guys 
and bad guys. We have been through that.
    You know that famous you are with us or you are against us? 
I really think that we have to move on because we saw and have 
witnessed over the past 8 years what that achieved for us. At 
least what it achieved in Latin America was resentment.
    I am reminded of the poll by John Zogby which posts a very 
simple question. How would you grade the United States 
Government's handling of our relationships with Latin America? 
It was 86 percent negative and 13 percent positive, and I guess 
1 percent was undecided.
    So we didn't do too well during the Bush administration in 
terms of Latin America no matter how many summits were held. 
Clearly there was resentment because we were perceived to be, 
as Mr. Meeks said, telling them what they had to do. That era 
should be over.
    I am really disturbed when I hear that somehow we are going 
to hold up remittances to El Salvador if they dare vote in an 
election for a government that we might not like. I thought we 
won the Cold War, Mr. Chairman, and I am presuming--at least my 
information is--that the FMLN is no longer considered a 
terrorist organization, much like the IRA and the Sinn Fein in 
Northern Ireland morphed into mainstream Irish politics and 
democracy. So I think it is very, very dangerous not to be 
labeling all the time.
    You know, the Ambassador mentioned me earlier in reference 
to Venezuela in that he was picking on me. I don't think you 
are picking on me, Mr. Ambassador. We have had disagreements 
about your policy vis-a-vis Venezuela.
    You know, you mentioned in your remarks that it was 
important that President Obama send a signal that he knows the 
difference between despots and democrats. Let me assure you he 
does. I have no doubt. I have full confidence in President 
Obama. He will know that distinction.
    I daresay in the case of Venezuela he would not have made 
an effort to support tacitly the coups. He would not have 
attempted to influence other ambassadors in other nations in 
Latin America to confer legitimacy to the Carmona government, 
which, as you know, Ambassador Reich, because you were part of 
that effort, when Pedro Carmona swore himself in in Venezuela 
his first act was to abolish the National Assembly, to abolish 
the judiciary, and I don't know what other democratic 
institution was abolished under Mr. Carmona, but I daresay that 
prompted the return of Hugo Chavez.
    So I don't think that President Obama would have made the 
mistake of tacitly supporting a coup and then conferring or 
attempting to confer some legitimacy on a government that 
clearly was undemocratic, authoritarian.
    Ambassador Reich. Neither did we, sir.
    Mr. Delahunt. No.
    Ambassador Reich. I am afraid I am not going to have time 
to respond, but I have to respond to that.
    Mr. Delahunt. Do you know what? There are rules here. I 
have the floor. You are not yielding the time. I have the 
floor, and I will yield back.
    Chairman Berman. The time of the gentleman has been yielded 
back.
    Do you want second rounds? We have 6 minutes to get to the 
floor for votes. Do you want to chair it?
    First of all, to the witnesses. Did you plan to have lunch 
today?
    Ambassador Reich. I would be very interested, Mr. Chairman, 
if I could, in responding to Mr. Delahunt's allegations because 
they are serious allegations.
    Chairman Berman. Well, I will tell you what. I will take 
time, which I haven't taken yet on this round, and give you a 
minute to respond. How is that?
    Ambassador Reich. Very quickly, sir, I was the Assistant 
Secretary of State when those events took place. I personally 
ordered----
    Chairman Berman. I thought you weren't. Were you Assistant 
Secretary? I guess you would know, but I was told that you were 
no longer Assistant Secretary of State.
    Ambassador Reich. To the best of my recollection, sir, I 
was the Assistant Secretary of State on April 11, 2002.
    I instructed Ambassador Charles Shapiro to find Mr. Carmona 
and tell him that if he swore himself in--and this, by the way, 
is a matter of the record of the State Department, and it is in 
the investigation of the Inspector General that followed these 
events, just to make sure we were all telling the truth. The 
State Department Inspector General was doing his job.
    I instructed Ambassador Shapiro to tell Mr. Carmona that if 
he swore himself in, violating Chavez's own constitution, that 
he could not count on the support of the United States 
Government, and we would have to impose economic sanctions, 
number one.
    So, Mr. Delahunt, I am happy to refer you to----
    Mr. Delahunt. If the gentleman would yield?
    Ambassador Reich. Yes.
    Mr. Delahunt. Okay.
    Chairman Berman. I will yield.
    Mr. Delahunt. I thank the chair. You did not convene a 
meeting of Latin American ambassadors in the State Department 
and urge them to recognize the Carmona government?
    Ambassador Reich. Sir, the Latin America ambassadors 
requested a meeting with us to find out what----
    Mr. Delahunt. Did you urge them to----
    Ambassador Reich. No.
    Mr. Delahunt. You did not?
    Ambassador Reich. I did not.
    Mr. Delahunt. That is your testimony here right now in 
front of this committee?
    Ambassador Reich. The----
    Mr. Delahunt. Okay. I will accept that. Is that your 
answer?
    Ambassador Reich. Well, the----
    Mr. Delahunt. Is that your answer, Ambassador?
    Ambassador Reich. My answer is that we told the Latin 
American ambassadors what we believe was taking place in 
Venezuela at the time, but I am telling you that we did not 
tacitly endorse a coup.
    Mr. Delahunt. What I am asking you is did you urge----
    Ambassador Reich. No, I did not urge.
    Mr. Delahunt. You did not urge the Latin American 
ambassadors to recognize the Carmona government----
    Ambassador Reich. No.
    Mr. Delahunt [continuing]. In the State Department?
    Ambassador Reich. I do not--you know, the events of that 
week, by the way, where nobody in the State Department got much 
sleep, the events of that week are compressed.
    I do remember the meeting that my deputy came to me and 
said the Latin American ambassadors are asking for a meeting. 
They want to know what is going on in Venezuela. I said I want 
to know what is going on in Venezuela too. I don't know, 
because our ambassador, Charles Shapiro, could not find out 
what was going on. That is when I told him what I just said.
    Mr. Delahunt. He was on the scene in Caracas at the time?
    Ambassador Reich. He was on the scene in Caracas at the 
time.
    Mr. Delahunt. Right.
    Ambassador Reich. We did not encourage----
    Mr. Delahunt. The Rio Group on the 11th and 12th, they took 
action. Do you remember that?
    Ambassador Reich. Yes. The Rio Group was meeting I think in 
Panama, and they condemned the--not on the 11th and 12th. It 
was actually a little later, if I am not mistaken. It was that 
weekend.
    The events were April 11, a Thursday, and I think the Rio 
Group was meeting in Panama Saturday. Saturday night was the 
night that the Venezuelan military brought Chavez back 
because--you are correct--Mr. Carmona violated the 
constitution, swore himself in in spite of everything the 
United States Government in my person and the ambassador of the 
United States, Shapiro, told him we were going to have to do.
    Mr. Delahunt. Well, thank you. Thank you for that.
    Chairman Berman. This is exciting. This is wonderful. This 
is what I came for, but I have to go vote.
    The committee hearing is adjourned. I thank all our 
witnesses very much. We touched on a lot of important issues, 
and I appreciate it.
    [Whereupon, at 12:18 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


 Material Submitted for the Hearing Record<greek-l>Hearing notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Hearing minutes deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Chairman Berman statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Connolly statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Klein statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Manzullo statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>McMahon statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Green statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Watson statement deg.
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Questions for the Record (Reich to 
                               Lee) deg._

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
